PETER J. LUCIDO
MACOMB COUNTY PROSECUTING ATTORNEY
ONE SOUTH MAIN STREET + MOUNT CLEMENS, MICHIGAN 48043

OFFICE: (586) 469-5350 + FAX: (586) 469-7335
PROSECUTORLUCIDO@MACOMBGOV.ORG

   

February 11, 2021

Clerk of the Court

Supreme Court of the United States
One First Street, NE

Washington, D.C. 20543

Re: Masalmani v. Michigan
Case No. 20-6626

Dear Clerk:

The Macomb County Prosecutor is requesting a 30-day extension,
pursuant to Rule 30.4, in filing its response to the petition for writ of
certiorari. While this prosecutor is currently not admitted to the Court,
this prosecutor will seek admittance via motion. This extension will allow
additional time for this prosecutor to gain admission to the Court and file
his response. In addition to this case, this prosecutor has numerous
other appellate cases in front of the Michigan Supreme Court, the Court
of Appeals, and the Circuit Court, including briefs, motions, and
evidentiary hearings, and is currently working remotely given the COVID-
19 pandemic. Additionally, there have been numerous personnel changes
in the Prosecutor’s office, which resulted in movement of personnel to
different divisions and a reduction in the appellate division.

Given the staff changes and shortages, this prosecutor has needed
to adopt additional responsibilities and duties in addition to his current
caseload. Moreover, the People did not object to the defendant’s request
for extensions, which allowed 5 months for the defendant to prepare his
petition. The People made contact with the State Appellate Defenders
Office and Erin Van Campen, attorneys for the defendant, and they have
no objection to the request for extension. Allowing the extension will
enable the People to fully brief the complex issue this Court may decide.

Please contact me at (586) 469-7767 if you have any questions or
comments whatsoever.
Respectfully Submitted,

PETER J. hag Ee eben

By: Joshua D. Abbott
Joshua D. Abbote{853528)
Chief Appellate Attorney

CC: Tina Olson/Erin Van Campen/SADO

 
